No. 19In the

Supreme Court of the United States

LLOYD N. JOHNSON,
Petitioner,
v.
KAREN RIMMER, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Robert E. Barnes
Counsel of Record
Barnes Law, LLP
601 South Figueroa Street, Suite 4050
Los Angeles, CA 90017
(213) 220-3341
robertbarnes@barneslawllp.com
Counsel for Petitioner

292946

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
This petition poses two questions: first, whether the
“professional judgment standard” this court articulated in
Youngberg can be reduced to “whether the worst doctor in
America would say ok”?; second, whether state defendants
can be immune from suit for civil rights violations when the
plaintiff knows a state defendant violated his civil rights,
but not which one amongst several implicated by the
evidence? Both questions split the Circuits. Both questions
involve issues of nationwide scope and exceptional
importance to one of the most vulnerable populations in
the country – the state institutionalized mentally ill.
1.

Is the “professional judg ment” standa rd
articulated by this Court in Youngberg v. Romeo
governing medical care of the institutionalized
mentally ill indistinguishable from the deliberate
indifference standard governing medical care
of convicted criminals to such a degree that
even gross negligence or criminal recklessness
is consistent with the exercise of “professional
judgment”?

2.

When evidence points to several possible different
suspects for civil rights violations, does the fact
of several different suspects preclude a plaintiff
from asking the jury to determine which one is
responsible?

ii
PARTIES TO THE PROCEEDINGS
Petitioner in this proceeding is Lloyd N. Johnson
Respondents in this proceeding are as follows: Thomas
Harding, David Macherey; Remedics Azecuta; Tony
Thrasher; and Ade George.

iii
RELATED CASES
Johnson v. Rimmer, et al., No. 14-cv-1408, U.S.
District Court for the Eastern District of Wisconsin.
Judgment entered August 18, 2018.
Johnson v. Rimmer, et al., No. 18-1321, U.S. Court
of Appeals for the Seventh Circuit. Judgment entered
August 30, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . . 5
I.

The circuits are split over the “professional
judgment” standard, with wide disparities
between the circuits, and a glaring need
for clarity from this court . . . . . . . . . . . . . . . . . . . 5

v
Table of Contents
Page
II. The circuits are split over whether a jury
can determine culpability amongst several
different suspects when the very nature
of the civil rights violations precludes a
plaintiff from excluding all other suspects
for the civil rights violations . . . . . . . . . . . . . . . . . 9
III. This decision is of exceptional importance
and nationwide scope as it will shape the
future of Constitutionally competent care for
the involuntarily institutionalized mentally
ill in state custody in America and make
sure civil rights violators cannot be immune
from suit by hiding behind their lack of
self-identification and the nature of their
violation when they are one amongst several
possible culprits the evidence implicates  . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT, FILED
AUGUST 30, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — DECISION AND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT
OF WISCONSIN, FILED AUGUST 18, 2018 . . . . 33a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Ammons v. Washington Dept. of Social and
Health Services,
648 F.3d 1020 (9th Cir. 2011) . . . . . . . . . . . . . . . . . . . . 6
Collignon v. Milwaukee Cty.,
163 F.3d 982 (7th Cir. 1998) . . . . . . . . . . . . . . . . . . . . . 8
County of Sacramento v. Lewis,
523 U.S. 833 (1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Davis v. Hill,
173 F. Supp. 2d 1136 (D. Kans. 2001)  . . . . . . . . . . . . 10
Doe v. New York City Dep’t of Soc. Servcs.,
709 F.2d 782 (2d Cir. 1983) . . . . . . . . . . . . . . . . . . . . . . 6
Farmer v. Brennan,
511 U.S. 825 (1994)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Jackson v. Indiana,
406 U.S. 715 (1972)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Johnson v. Rimmer,
936 F.3d 695 (7th Cir. 2019) . . . . . . . . . . . . . . . . . . . . . 7
Kulak v. City of New York,
88 F.3d 63 (2d Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . . . 8

viii
Cited Authorities
Page
Patten v. Nichols,
274 F.3d 829 (4th Cir. 2001)  . . . . . . . . . . . . . . . . . . . . . 8
Rutherford v. City of Berkeley,
780 F.2d 1444 (9th Cir. 1986) . . . . . . . . . . . . . . . . . . . 10
Sain v. Wood,
512 F.3d 886 (7th Cir. 2008) . . . . . . . . . . . . . . . . . . . . . 8
Segal v. Los Angeles Cty.,
852 F.2d 1290 (9th Cir. 1988) . . . . . . . . . . . . . . . . . . . 10
Shaw by Strain v. Strackhouse,
920 F.2d 1135 (3d Cir. 1990) . . . . . . . . . . . . . . . . . . . 6, 9
Smith v. Delamaid,
842 F. Supp. 453 (D. Kan. 1994) . . . . . . . . . . . . . . . . .10
Wyatt v. Cole,
504 U.S. 158, 112 S. Ct. 1827,
118 L. Ed. 2d 504 (1992)  . . . . . . . . . . . . . . . . . . . . . . 12
Youngberg v. Romeo,
457 U.S. 307 (1982)  . . . . . . . . . . . . . . . . . . . . . . . passim
Yvonne L. v. New Mexico Dep’t of Human Servs.,
959 F.2d 883 (10th Cir. 1992) . . . . . . . . . . . . . . . . . . . . 8

ix
Cited Authorities
Page
Statutes
U.S. Const. Amend. XIV, § 1 . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 10
Wis. Stat., § 51.15(1)(ar)(4) . . . . . . . . . . . . . . . . . . . . . . . . . 3

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Lloyd Johnson (“Johnson”) respectfully
petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Seventh Circuit
OPINIONS BELOW
The Seventh Circuit opinion below is published at 936
F. 3d 695 attached at Appendix 1a-32a. The district court’s
opinion is unpublished attached at Appendix 33a-51a.
JURISDICTION
The Federal Circuit entered judgment on August 30,
2019. The Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
United States Constitution, Amendment XIV, Section 1:
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the
United States and of the state wherein they reside. No
state shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life,
liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection
of the laws.

2
42 U.S.C. § 1983:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or causes
to be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of
this section, any Act of Congress applicable exclusively
to the District of Columbia shall be considered to be a
statute of the District of Columbia.
STATEMENT
On March 18, 2012, the Appellant, Lloyd Johnson,
a mental health patient in state custody solely for the
purpose to protect himself from self-harm, was left alone,
unsupervised, unobserved, and given the very means to
harm himself that led him to being institutionalized by a
court to prevent: Johnson severed his penis with scissors,
the very injury he was institutionalized to prevent from
occurring. The District Court and Court of Appeals
dismissed Johnson’s §1983 claims on two grounds: first,
by imposing the highest burden on plaintiffs to prove
unprofessional judgment (“if the worst doctor in America
might do it, then it is Constitutionally competent care”
standard of due process); and, secondly, if a plaintiff does

3
not know which state defendant injured him amongst
several defendants, then the plaintiff is not allowed to
ask a jury to make that determination from the available
evidence, even where evidence implicates one defendant
in particular.
Lloyd Johnson (Johnson) voluntarily committed
himself to MHC on February 28, 2012 for depression,
delusional thoughts, auditory hallucinations, and suicidal
ideations. App., infra, 3a. MHC released him in short
order. On March 3, 2012, Johnson used a pair of scissors
to sever his testicles, cut off both of his earlobes, and
remove a portion of skin from his penis. Ibid. He was
rushed to Froedtert Hospital where he remained under
close supervision. Ibid. Pursuant to Wis. Stat., §51.15(1)
(ar)(4), Johnson was involuntarily committed to MHC
on March 8, 2012. App., infra, 33a. Johnson was placed
under 24/7 1:1 supervision (1:1), which the MHC doctors
determined was necessary to ensure Johnson’s safety until
he demonstrated clear, reality-based thinking for seven
days. App., infra, 37a.
In contravention of the treatment plan, defendant
Doctor Machery removed Johnson from 1:1 supervision
and observation. Ibid. During the following week, Johnson
attempted to hide a metal object in his pants (presumably
for self-mutilation), and stated he “wanted to die,” and “it
hurts,”; was in a near constant state of depression, anxiety,
and delusional thoughts; did not show any regret for his
previous acts of self-mutilation; expressed his desire to
finish removing his genitals while at MHC; and continued
to have auditory hallucinations. App., infra, 5a, 6a, 11a,
35a, 38a. Nevertheless, Dr. Macherey (Johnson’s treating
psychologist) abandoned his treatment plan and the

4
precautionary measures he instituted to ensure Johnson’s
safety, removing Johnson from 1:1 on a Friday before the
weekend – even though no doctor would be on site. App.,
infra, 8a, 37a.
On March 16, Johnson suffered from depression,
anxiety, decreased energy, and disorganized thoughts.
App., infra, 8a, 36a. Inexplicably, Dr. Macherey suggested
that Johnson’s thinking had become organized for almost
48 hours when the medial chart indicated the exact
opposite. App., infra, 36a-37a. MHC’s nursing staff
documented less than three hours later (on March 16 at
9:30 p.m.) that Johnson’s thought process was marred with
“loose associations.” App., infra, 8a, 27a.
Dr. Macherey’s decision to remove Johnson from
1:1 was not based on professional judgment, because it
was directly contradicted by his own treatment plan.
Forty-five hours after being removed form 1:1, Johnson
approached a nurse and handed her a blood-soaked towel,
stating “I cut my dick” – and indeed he had severed his
penis. App., infra, 12a. An investigation revealed that
Johnson committed self-harm with the same type of
surgical scissors used at MHC. App., infra, 12a-13a. The
medical chart revealed Nurse George (George) had been
in Johnson’s room just prior to the incident using surgical
scissors to replace Johnson’s wound dressing – against
policy. App., infra, 11a, 43a. Johnson testified that Nurse
George subsequently entered his room, used scissors to
remove his dressings while in his bathroom. Ibid.

5
REASONS FOR GRANTING THE PETITION
I.

The circuits are split over the “professional
judgment” standard, with wide disparities between
the circuits, and a glaring need for clarity from this
court

How can a court order someone institutionalized solely
to protect them from self-harm, then courts also say
the state has no responsibility when the state facilitates
precisely that self-harm to that person? One Flew Over
The Cuckoo’s Nest, indeed.
This court rejected such a low standard in such cases
on multiple occasions. Youngberg v. Romeo, 457 U.S. 307,
321-322 (1982) (“Persons who have been involuntarily
committed are entitled to more considerate treatment and
conditions of confinement than criminals whose conditions
of confinement are designed to punish”); County of
Sacramento v. Lewis, 523 U.S. 833, 852 n.12 (1998) (noting
that “combination of a patient’s involuntary commitment
and his total dependence on his custodians obliges
the government to take thought and make reasonable
provision for the patient’s welfare”); Jackson v. Indiana,
406 U.S. 715, 738 (1972) (“At the least, due process requires
that the nature and duration of commitment bear some
reasonable relation to the purpose for which the individual
is committed”); Concurring justices equally noted “that
due process might well bind the State to ensure that
the conditions of his commitment bear some reasonable
relation to each of those goals.” Youngberg v. Romeo, 457
U.S. 307, 326 (1982) (Blackmun, J., concurring)

6
The need for clarity by this court in this area is
manifest by the widely varying standards imposed by the
differing Circuits.
The Third Circuit interprets the professional
judgment standard to require something more than
negligence, but less than gross negligence. Shaw by Strain
v. Strackhouse, 920 F.2d 1135, 1145-1146 (3d Cir. 1990)
(“professional judgment more closely approximates—
although, as we have discussed, remains somewhat less
deferential than—a recklessness or gross negligence
standard”).
The Ninth Circuit interprets the professional
judgment standard in the medical context to require
medical professionals “take adequate steps in accordance
with professional standards to prevent harm from
occurring” against a known risk. Ammons v. Washington
Dept. of Social and Health Services, 648 F.3d 1020, 1030
(9th Cir. 2011)
The Second Circuit interprets the professional
judgment standard to require “gross negligence.” Doe v.
New York City Dep’t of Soc. Servcs., 709 F.2d 782, 790 (2d
Cir. 1983) (“the Court adopted what is essentially a gross
negligence standard” in Youngberg).
The Seventh Circuit rejects the substantial deviance
language of Youngberg, the “less deferential” than
gross negligence standard of the Third Circuit, the
“professional standards” analysis of the Ninth Circuit,
and the “gross negligence” standard of the Second
Circuit. Instead, the Seventh Circuit interprets the
professional judgment standard as functionally the same

7
as deliberate indifference, requiring, in the opinion
below, that an injured party prove that “no minimally
competent professional would have so responded under
those circumstances.” Johnson v. Rimmer, 936 F.3d 695,
707 (7th Cir. 2019). The Seventh Circuit basically adopted
the “might the worst doctor in America do it too” standard
of Constitutionally competent “professional judgment”
for the care of the mentally ill in state custody, even as
to people in state custody for no reason other than their
mental illness where the state’s sole custodial purpose is
the prevention of their self-harm.
The Seventh Circuit’s “no minimally competent
doctor” degrades the Constitutional standard this court
set requiring “professional judgment” be exercised in
cases of state custodial care of a mentally ill individual
where the state’s only purpose is protecting the
involuntarily institutionalized from the worst effects of
their mental illness. Instead of the substantial deviance
standard articulated by this Court, or the gross
negligence standard imposed by fellow federal circuits,
the Seventh Circuit demands more than substantial
deviance and more than gross negligence. The Seventh
Circuit asks: could the worst doctor in America have
possibly made the same decision? If so, then the Seventh
Circuit calls that “professional judgment.” This effectively
negates the reason for Youngberg’s higher standard of
“professional judgment” in cases of care for the mentally
ill or handicapped in the first place.
Worse yet, the Seventh Circuit joined the Fifth
Circuit in equating the professional judgment standard
for custodial care of the mentally ill and mentally
handicapped as analytically indistinguishable from the

8
deliberate indifference standard applied to criminal
convicts, despite this Court warning against precisely that
in Youngberg. See Sain v. Wood, 512 F.3d 886, 894-895 (7th
Cir. 2008) (equating deliberate indifference standard to
professional judgment standard as functionally identical);
Collignon v. Milwaukee Cnty., 163 F.3d 982, 988 (7th Cir.
1998) (concluding that “there is minimal difference in
what the two standards require of state actors”); see also
Yvonne L. v. New Mexico Dep’t of Human Servs., 959
F.2d 883, 894 (10 th Cir. 1992) (doubting whether “there
is much difference” between deliberate indifference and
professional judgment).
The Fourth Circuit sharply disagreed, noting this
Court’s own judgments expressly disagreed with equating
deliberate indifference and professional judgment.
“Applying the deliberate indifference standard to the
Estate’s claim would be giving involuntarily committed
patients the same treatment as that afforded to convicted
prisoners, a result the Youngberg Court specifically
condemned.” Patten v. Nichols, 274 F.3d 829, 838 (4th Cir.
2001).
In Youngberg, this Court unequivocally declared
that those “who have been involuntarily committed are
entitled to more considerate treatment and conditions
of confinement than criminals whose conditions of
confinement are designed to punish.” Id. at 321-322.
The Second Circuit agreed with the Fourth Circuit, in
disagreement with the Seventh Circuit. The professional
judgment standard “requires more than simple negligence
on the part of the doctor but less than deliberate
indifference.” Kulak v. City of New York, 88 F.3d 63, 75
(2d Cir. 1996). The Third Circuit agreed with the Fourth

9
Circuit, in disagreement with the Seventh Circuit. Shaw
by Strain v. Strackhouse, 920 F.2d 1135, 1145-1146 (3d Cir.
1990) (describing Youngberg’s holding as an “unambiguous
rejection of the deliberate indifference standard in the
context of involuntarily institutionalized.”)
If the mentally ill, judicially incarcerated across
America every day for the sole purpose of protecting
themselves from self-harm, can then be given the tools
and means of that self-harm while in state custody by
state officers’ gravest derelictions of duty, then states
should have no right to institutionalize them against their
will in the first place. Once the state voluntarily took that
responsibility on, the Constitution compels more than a
“could the worst doctor in America possibly do it too”
standard of professional judgment to safeguard the care of
such a vulnerable, dependent population. Grant certiorari.
II. The circuits are split over whether a jury can
determine culpability amongst several different
suspects when the very nature of the civil rights
violations precludes a plaintiff from excluding all
other suspects for the civil rights violations
The Seventh Circuit adopted another novel position:
if you want to get away with civil rights violations, just
make sure you can point to at least one other potential
culprit, and then you are as free as you want to violate
anyone’s civil rights anytime you want, even injure
the most vulnerable population in state care, and even
where the only duty of the state officer is to protect that
individual’s safety.

10
Courts within both the Tenth Circuit and the Ninth
Circuit disagree. See Rutherford v. City of Berkeley,
780 F.2d 1444, 1448 (9 th Cir. 1986) (holding where facts
surrounding the alleged beating are disputed and the
plaintiff cannot identify any specific officer who beat
him, the very presence of a particular officer at the scene
may constitute sufficient evidence to infer that the officer
participated in the beating);, and districts within the
Tenth Circuit, disagree with the Seventh Circuit, holding
“the court notes the remaining defendants cannot escape
liability merely because plaintiff is unable, at this stage
of the proceedings, to positively identify which deputies
beat him.” Davis v. Hill, 173 F.Supp.2d 1136, 1144 (D.
Kans. 2001); Smith v. Delamaid, 842 F.Supp. 453, 459
(D. Kan. 1994) (rejecting argument officers could not be
liable because the plaintiff was unable to identify which
officer abused him).
W hile §1983 claims require the petitioner to
specifically plead the individual who violated their rights,
as was done here, most Circuits allow claims to proceed
as long as the specific Defendant was possibly culpable.
The Ninth Circuit tackled a similar issue in Segal v.
Los Angeles County. There, a District Court dismissed
the Plaintiff’s excessive force claim. The Ninth Circuit
reversed even though “no evidence existed to show that
any of the defendants personally participated in the
assault.” That Court held “the very presence of the officers
at the scene may constitute sufficient evidence for a jury
to infer that the officers participated in an illegal beating
that was shown to have occurred. Segal v. Los Angeles
Cty., 852 F.2d 1290 (9th Cir. 1988); and see Rutherford v.
City of Berkeley, 780 F.2d 1444, 1448 (9th Cir. 1986) (“[The]
three [defendant] officers agreed that they were among the

11
five or six officers who detained, arrested and handcuffed
Rutherford, but denied punching or kicking Rutherford.
From this evidence, a jury could reasonably infer that the
named officers were participants in punching or kicking
Rutherford. By declining to give Rutherford the benefit
of this inference, the district court improperly took this
case from the jury. We express no opinion whether a jury
would have made that inference; that decision is one for
the trier of fact.”)
Adopting the Ninth Circuit’s approach, which allows
the jury to appropriately determine who was involved
and to what extent, is in accord with congressional intent,
long established jurisprudence and protects claimants
while not placing an undue burden on the state. Violating
someone’s rights in a way that hides your identity is not a
license to immunity from civil rights liability when a jury
could reasonably infer that defendant is the one culpable.
Restore the civil rights of the protected. Don’t authorize
a finger-pointing excuse for not even facing a jury. Grant
certiorari.
III. This decision is of exceptional importance and
nationwide scope as it will shape the future
of Constitutionally competent care for the
involuntarily institutionalized mentally ill in state
custody in America and make sure civil rights
violators cannot be immune from suit by hiding
behind their lack of self-identification and the
nature of their violation when they are one amongst
several possible culprits the evidence implicates
While sadly long overlooked by the courts after its
establishment in the second half of the 19 th century, the

12
power of the civil rights law awoke this century “to deter
state actors from using the badge of their authority to
deprive individuals of their federally guaranteed rights
and to provide relief to victims if such deterrence fails.”
Wyatt v. Cole, 504 U.S. 158, 161, 112 S. Ct. 1827, 1830, 118
L. Ed. 2d 504 (1992).
This court protected inmates where state actors failed
to “act reasonably” to prevent a known risk of harm to an
inmate. Farmer v. Brennan, 511 U.S. 825, 845 (1994). This
requires state officials are liable to harm suffered by an
inmate whenever they fail “to take reasonable measures to
abate” a known risk of serious harm. Farmer v. Brennan,
511 U.S. 825, 847 (1994). The extension of these protections,
with a lower level of culpable intent concomitant to the
particular responsibilities of the state actors involved
and the known peculiar risks to the individual in cases
of those involuntarily institutionalized mentally infirm to
protect them from self-harm, animated the “professional
judgment” standard of Youngberg. Several Circuit
followed suit, imposing gross negligence or their functional
equivalent, to hold state actors accountable. The Seventh
Circuit obliterated that standard, reducing it to another
bad meme of state custodial care, a place where, even at
the mental hospital for the mentally ill where the state’s
sole goal is to prevent self-harm, getting “Epsteined” is
“just normal,” even in cases where the sole reason for
judicially imposed involuntary institutionalization was
not to get “Epsteined.”
Imagine someone institutionalized to prevent them
from hanging themselves, then being found hanging, with
a noose, a ceiling ring, and a chair being “left” in their
room while they were unsupervised, despite a doctor’s own

13
medical plan to prevent just that, and nursing orders to
prevent just that? That is almost precisely what occurred
here. That is not the standard for Constitutionally
competent care. Grant cert.
CONCLUSION
If no reasonable jury could find the doctor ignoring his
own orders in this case as Constitutionally incompetent
care, then the standard for Constitutionally competent
care for the mentally ill in state custody is a cruel joke.
Johnson’s custodians other excuse is no one can prove who
individually left the injurious weapon in the room, and thus
claim no civil rights suit can be brought against anyone,
ever. This cannot be Constitutionally adequate custodial
care for the mentally ill in state custody, or the mentally
ill in state custody have no remedial civil rights in state
custody in America.
For the reasons stated herein this Court should grant
certiorari.
Respectfully submitted,
Robert E. Barnes
Counsel of Record
Barnes Law, LLP
601 South Figueroa Street, Suite 4050
Los Angeles, CA 90017
(213) 220-3341
robertbarnes@barneslawllp.com
Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, FILED AUGUST 30, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-1321
LLOYD N. JOHNSON,
Plaintiff-Appellant,
v.
KAREN RIMMER, et al.,
Defendants-Appellees.
February 22, 2019, Argued
August 30, 2019, Decided
Appeal from the United States District Court
for the Eastern District of Wisconsin.
No. 2:14-cv-01408-LA — Lynn Adelman, Judge.
Before Ripple, Manion, and Brennan, Circuit Judges.
Ripple, Circuit Judge. Lloyd Johnson brought this
action under 42 U.S.C. § 1983 against various employees
and officials of the Milwaukee County Medical Health
Complex (“MHC”), MHC itself, Milwaukee County,
and the County’s Department of Health and Human
Services. His claims center on an incident of substantial

2a
Appendix A
self-mutilation that occurred while he was in the care
of MHC. Mr. Johnson alleged that the defendants
violated his Fourteenth Amendment rights by providing
constitutionally inadequate medical care, which led to his
self-mutilation. Mr. Johnson also brought claims under
Monell v. Department of Social Services, 436 U.S. 658, 98
S. Ct. 2018, 56 L. Ed. 2d 611 (1978), in which he alleged that
the institutional defendants maintained unconstitutional
policies, procedures, and customs that caused his injuries.
He further maintained that defendants engaged in a
conspiracy to cover up the constitutionally inadequate
care. In addition to these federal claims, Mr. Johnson
brought associated state-law claims.
The defendants moved for summary judgment, and the
district court granted the motion in favor of all defendants
on all of Mr. Johnson’s federal claims. It declined to retain
jurisdiction over the state-law claims. Mr. Johnson now
brings this appeal, challenging only the district court’s
decision in favor of two individual defendants: Dr. David
Macherey and Nurse Ade George. For reasons set forth
in the following opinion, we affirm the judgment of the
district court.
I.
BACKGROUND
A.
Mr. Johnson suffers from a variety of mental ailments,
including paranoid schizophrenia, major depressive

3a
Appendix A
disorder recurrent, obsessive compulsive disorder, and
borderline personality disorder. Starting in mid-2011, he
had been admitted intermittently to MHC for treatment.
During one of these stays, on March 18, 2012, Mr. Johnson
substantially harmed himself, leading to this present suit.
The relevant sequence of events began on February
28, 2012, when Mr. Johnson voluntarily admitted himself
to MHC with complaints of depression, delusional
thoughts, auditory hallucinations, and suicidal ideations.
Mr. Johnson’s intake records at that admission reflect that
he previously had attempted suicide or self-harm and that
he told the intake nurse that “his ears are in the shape
that they are in (keloids) because he pulled on his penis
in the past and after that, they grew the keloids.”1 He
was diagnosed with a psychotic disorder but was released
twenty-two hours after admission. MHC discharged Mr.
Johnson because his condition had improved; he had
asked to be released; and the attending physician had
determined there were no grounds to detain him at MHC
against his will.
On March 3, 2012, while staying at his stepmother’s
house, Mr. Johnson used a pair of scissors to sever his
testicles, cut off both his earlobes, and remove a portion
of skin from his penis. Milwaukee Police took him to
Froedtert Hospital for treatment. He remained there
until March 8, when he was transferred to MHC pursuant

1. R.78-1 at 2. A keloid is a type of raised scar that can occur
where the skin has healed after an injury.

4a
Appendix A
to a petition for emergency detention. 2 At MHC, he was
assigned a private bedroom with a private bathroom in the
Intensive Treatment Unit (“ITU”), a locked area reserved
for the highest-risk patients. 3 Upon admission, he was
placed on 1:1 observation status, which required that he
never be left alone or out of sight of an assigned nurse.4
On March 9, Mr. Johnson met with Dr. David
Macherey for an incoming assessment. At the time, Dr.
Macherey was the psychologist and treatment director in
the ITU. He diagnosed Mr. Johnson with bipolar disorder5
2. See Wis. Stat. § 51.15(1)(ar)(4) (providing that the state
may take a person into temporary custody if the individual is
mentally ill and evinces a substantial probability of physical harm
to himself).
3. All patients and visitors are searched before entering the
ITU. They are prohibited from having any sort of sharp objects
on their persons while in the ITU.
4. This regimen includes when the patient is asleep or using
the bathroom. Policies provide that while either a nurse or doctor
may initiate 1:1 observation, a physician must review and confirm
a nurse-initiated observation. Further, any 1:1 observation must
be reevaluated every twenty-four hours to determine whether the
heightened observation should continue.
5. Dr. Macherey described bipolar disorder as
tend[ing] to follow a pattern where typically a person
becomes manic, the mania runs its course, and quite
often, without treatment, a person might enter a
depressive episode following the mania. And then
there can also be periods of fairly stable behavior
where the person, for all intents and purposes, doesn’t
appear to have a mental illness.

5a
Appendix A
and noted that the most recent episode was mixed, 6
severe, and psychotic. Dr. Macherey concluded that Mr.
Johnson’s explanations for his self-mutilation were various
and delusional. He also determined that Mr. Johnson had
auditory hallucinations, difficulty concentrating, poor selfesteem, and impaired judgment. He specifically noted Mr.
Johnson’s lack of concern about his recent behavior. As
a result of these conclusions, Dr. Macherey determined
that Mr. Johnson was at significant risk of self-harm. He
ordered that Mr. Johnson remain on 1:1 observation to
ensure against further self-mutilating behavior.
That same day, Dr. Thomas Harding, the Medical
Director of MHC, also examined Mr. Johnson. He
concurred with Dr. Macherey’s assessment and prescribed
a variety of drugs to treat Mr. Johnson’s mental ailments.
Dr. Harding and Dr. Macherey then established a goal
for Mr. Johnson to “report freedom from [auditory
hallucinations] and demonstrate clear[,] reality[-]based
thinking within 7 days.” 7

R.69-2 at 11-12 (Macherey Dep. 40:18-41:13). He also asserted
that, with treatment, people with bipolar disorder could stay
stable indefinitely.
6. A mixed state occurs when a bipolar individual experiences
both mania and depression at the same time. Persons in a mixed
state are at a higher risk of self-harm. Id. at 12 (Macherey Dep.
41:17-42:09).
7. R.78-7 at 1. The defendants assert that this goal referred
to conditions that must be met prior to discharge from MHC; Mr.
Johnson contends that this goal refers to conditions that must be
met before he could be removed from 1:1 observation status.

6a
Appendix A
Later that day, Mr. Johnson found a metal object and
inserted the object into his pants. Mr. Johnson could have
used this object to harm himself, but the staff quickly
noticed his action and took the object from him. Nurse
Remedios Azcueta testified that when Mr. Johnson hid
the metal object, he said that “he wanted to die” and that
“[i]t hurts.”8
Over the next five days,9 Mr. Johnson continued to be
on the 1:1 observation protocol. He remained in a state
of anxiousness, and had disorganized and tangential
thoughts, delusions, and auditory hallucinations. Mr.
Johnson reported that he did not regret his act of selfharm. Further, although the records indicate that such
thoughts became more sporadic over time, Mr. Johnson
continued to express that he wished to remove his genitals.
For example, on the morning of March 14, he told a nurse
that he still wanted to harm himself by removing his
genitals and, if he could, he would do it at MHC. That
same day, Mr. Johnson reported that his medications
were not working.
On March 15, Mr. Johnson’s treatment team, which
included Dr. Macherey, Dr. Harding, Nurse Mary
Holtz, psychiatric social worker Candace Coates, and
occupational therapist Sue Erato, met with Mr. Johnson
to determine the next steps in his treatment. The record
8. R.69-6 at 13-14 (Azcueta Dep. 48:11-49:11).
9. On March 13, the petition for Mr. Johnson’s emergency
detention was withdrawn, and he signed an agreement voluntarily
admitting himself to MHC.

7a
Appendix A
reflects that Mr. Johnson participated cooperatively in this
conference, reported that the medication was helping, and
indicated that the auditory hallucinations that he had been
experiencing had become cloudy and less troublesome.
Dr. Harding determined that Mr. Johnson was improving
because he articulated a desire for therapy, was able to
identify personal strengths and goals, slept better, denied
having suicidal thoughts, and was future-oriented. Both
physicians, however, noted that Mr. Johnson’s thought
process still was disorganized. Mr. Johnson’s medical
records reflect that the treatment goal for “absence of
plan for self harm x3 days was extended.”10 Mr. Johnson
remained on 1:1 observation following the meeting.
Prior to the March 15 meeting, Nurse Holtz noted
during her morning shift that Mr. Johnson continued
to have bizarre thoughts, although he reported that his
ongoing auditory hallucinations had become background
noise. She also documented that Mr. Johnson denied
having ideations of suicide or self-harm. She noted that
Mr. Johnson told her that he could not believe that he had
harmed himself on March 3. That night, Nurse Azcueta
documented that Mr. Johnson was depressed.11 She also
noted that Mr. Johnson’s “thought[s] [we]re improving
[with] medications” and that he “stated no thoughts of
self[-]harm.”12 Further, her notes reflect that Mr. Johnson
interacted with other patients in the ITU and cooperated
during his dressing change.
10. R.70-8 at 2.
11. See R.70-12 at 29.
12. Id. at 30; see also R.69-6 at 22 (Azcueta Dep. 82:12-83:15).

8a
Appendix A
Dr. Macherey next examined Mr. Johnson on March
16. He documented that, although Mr. Johnson remained
depressed, his thinking had been organized for almost
forty-eight hours and he denied any thoughts of selfharm.14 Dr. Macherey’s notes also reflect that Mr. Johnson
still demonstrated loose associations and had not yet
met the treatment plan’s goal of showing reality-based
thinking for seven days without auditory hallucinations.15
13

During her morning shift that day, Nurse Holtz noted
that Mr. Johnson’s “thoughts [we]re reality[-]based” and
that he “denie[d] any thoughts of self-harm.”16 She also
documented that Mr. Johnson was “depressed” about the
harm he had done to himself and was “overwhelmed” by

13. March 16 was the last day that Dr. Macherey and Dr.
Harding saw Mr. Johnson prior to Mr. Johnson’s incident of selfmutilation. Citing his medical records, Mr. Johnson notes that
no medical doctor saw him over the weekend on March 17 and
March 18. Relying on the same records, Mr. Johnson asserts that
Dr. Macherey did not provide any instructions for Mr. Johnson’s
ongoing care and safety during the weekend. The defendants
respond that there was an onsite physician who was aware of Mr.
Johnson’s needs.
14. Mr. Johnson denies that forty-eight hours had passed
since he had any thoughts of self-harm. He calculates the time as
closer to thirty-six hours.
15. Defendants argue that this seven-day plan reflected
goals that must be met prior to discharge from the MHC. See
supra note 7.
16. R.70-12 at 32.

9a
Appendix A
his medical problems.17 Around 3:00 p.m., Dr. Macherey
removed Mr. Johnson from 1:1 observation status. He
testified that he believed Mr. Johnson’s condition was
improving because Mr. Johnson was no longer ignoring
his medical problems, showed an appreciation for his acts
of self-harm, and had stopped expressing an intent to
harm himself. Dr. Harding concurred with Dr. Macherey’s
assessment, and the rest of his treatment team did not
object to the decision to remove Mr. Johnson from 1:1
observation.18

17. Id.
18. Nurse Karen Rimmer testified that, during a debriefing
following Mr. Johnson’s later act of self-mutilation, she did
not agree with the decision to remove Mr. Johnson from 1:1
observation at the time the order was made and that other nurses
thought similarly. She further testified that, when she made those
statements at the debriefing, a supervisor said that the physicians
had concerns about the costs of too many 1:1 observations. Nurse
Rimmer was not part of Mr. Johnson’s treatment team but was
assigned to his 1:1 care at different points. The defendants note
that Nurse Rimmer did not work on March 16. Nurse Ade George
also testified that it was not normal for patients to be removed from
1:1 observation status on Fridays going into weekends; March 16,
2012 was a Friday.
Additionally, Dr. Mitchell Dunn, Mr. Johnson’s expert,
opined that it was “premature” to remove Mr. Johnson from 1:1
observation and that Mr. Johnson should have remained on that
level of observation for “another couple of weeks” and not “a matter
of a couple of days.” R.79-11 at 34, 35 (Dunn Dep. 118:05-07, 120:1013). Dr. Dunn suggested that

10a
Appendix A
At MHC, the nursing staff conducted rounds every
fifteen minutes to check on the whereabouts and well-being
of each patient.19 Once removed from 1:1 observation, Mr.
Johnson was subject to these well-being checks. Further,
nurses conducted “change of shift rounds” at the start of
each shift; the nurses observed the whereabouts and well[t]he fact that Mr. Johnson had already made a
significant attempt to cut off his penis and had already
cut off his testicles and cut his earlobes indicated a
desire and awareness to engage—and a willingness
to engage in significant self-harmful behavior that ...
was not fully appreciated by either Dr. Macherey or
Dr. Harding.
Id. at 26 (Dunn Dep. 87:12-18). Dr. Dunn noted that Mr. Johnson
hurt himself just sixty hours after previously being discharged
from MHC following his brief February visit; in Dr. Dunn’s
opinion, Mr. Johnson’s behavior was unpredictable. Id. at 27 (Dunn
Dep. 89:03-91:10).
The defendants note that Dr. Dunn also testified that removal
of a patient from 1:1 observation is a legitimate course of treatment
and a matter of clinical judgment, and that there are no established
standards in the field of psychiatry for the use of 1:1 observation.
Additionally, Dr. Dunn stated that the length of time a patient
should be under 1:1 observation varies based on specifics to
the patient. Dr. Dunn further noted that 1:1 observation can be
harmful to the patient because it is very intrusive. The defendant’s
expert, Dr. Kenneth Robbins, opined that Dr. Macherey’s decision
was reasonable.
19. Additionally, at the relevant time, the ITU was divided
into three “zones” for additional monitoring: one nursing staff
member continuously roamed two of the zones while a second
nurse did the same with the third zone. An additional nurse was
assigned to assist the other two.

11a
Appendix A
being of each patient and checked the safety of each patient
room, each bathroom, the common area, the treatment
room, and all other areas of the ITU. Also, twice per shift,
a staff member conducted environmental rounds, which
involved a tour of the entire ITU with an emphasis on
finding any safety hazards. 20
On March 18, Nurse George evaluated Mr. Johnson on
her morning shift. She noted that, although he presented
a flat affect, he communicated better, continued to express
regret for the harm he had caused himself, and denied
having any hallucinations or harmful ideations. Sometime
before 12:30 p.m., Nurse George changed the dressing
on Mr. Johnson’s wound. 21 Mr. Johnson testified that she
changed his dressing in his bathroom and used bandage
scissors to cut the yellow, gauze-like bandages while
doing so. Nurse George testified that she changed Mr.
Johnson’s dressing in the treatment room, that she never
used scissors during his treatment, and that she never
carried scissors on her person. 22
20. Mr. Johnson asserts that the nurses did not always
conduct their rounds as required by MHC policy.
21. The time of the chart entry that recorded the dressing
change was 12:30 p.m. See R.79-12 at 46-47 (George Dep. 45:1546:17). Consequently, the dressing must have been changed before
that time.
22. In records from an investigation conducted following Mr.
Johnson’s incident of self-harm, Nurse Steven Ellison recounts
that, in an interview on March 28, Nurse George claimed that
she changed Mr. Johnson’s dressing in the treatment room and
did not use scissors because the bandages were precut four-inch

12a
Appendix A
At approximately 4:00 p.m. on March 18, Mr. Johnson
approached the nursing station of the ITU. He handed
the nursing staff a pair of bandage scissors and towels
soaked in blood. He stated, “I cut my dick.” 23 His penis
was completely severed from his body. Mr. Johnson
was rushed to Froedtert Hospital, where his penis was
surgically reattached.
In the immediate aftermath of the incident, multiple
MHC employees reported that Mr. Johnson said that he
found the scissors in his bathroom. 24 He testified that
by four-inch squares and she could tear the tape with her hands.
Other nurses testified that the bandages used were precut and
that Mr. Johnson’s dressing changes did not require scissors.
There is evidence that other nurses carried scissors on their
persons and had used scissors during Mr. Johnson’s dressing
changes on days prior to March 18. At the time, MHC did not
have a specific policy regarding the use and inventory of scissors
beyond the “safeguards on [sic] a psychiatric hospital.” R.69-13
at 5 (Bergersen Dep. 14:20). Additionally, though Nurse George
testified that MHC policy required all dressing changes be done in
the treatment room, other nurses, including supervisors, testified
that dressing changes could be done in either the treatment room
or the bathroom.
23. R.78-4 at 18.
24. In Nurse Steve Ellison’s documentation from his
investigation, he recounts his own movements on that day and
records that, immediately after the incident, Mr. Johnson told
him, “Don’t be mad at no body [sic], they didn’t give them to me.
They were in my room, a bathroom. It was a blessing they were
left. I had to do it.” R.78-18 at 6. Nurse Suprina Gunn-Hayes, who
was with Nurse Ellison at the time, wrote a memo recounting

13a
Appendix A
the scissors were “[u]nder a pair of dry napkins, like
hand towel napkins” in his bathroom and that he harmed
himself shortly after finding them. 25 The scissors that he
used were metal-handled medical scissors manufactured
by a company from which MHC had purchased that type
of scissors. In his deposition, Mr. Johnson was unable to
identify how the scissors got to the bathroom and how
long they had been there. 26
that Mr. Johnson said, “I cut my dick off it had to go, no one gave
me the scissors I found them in the bathroom.” Id. at 8. Nurse
Mike Sonney-Kamanski wrote an email to Jennifer Bergerson,
then the director of acute services, around midnight on the day
of the incident, recounting that the nursing assistant who had
accompanied Mr. Johnson to the hospital reported that “[t]he
patient told the ER DOC that he found the scissors in a bathroom.”
Id. at 9. Nurse Azcueta also testified that Mr. Johnson said he
had found the scissors in the bathroom; Nurse Azceuta does not
recall when Mr. Johnson made this statement. Finally, Dr. Sara
Coleman visited Mr. Johnson at Froedtert Hospital on March
19 to determine whether Mr. Johnson should be involuntarily
committed to MHC following his physical treatment for his injury.
She testified that Mr. Johnson told her that he found the scissors
in the bathroom.
25. R.69-1 at 18 (Johnson Dep. 65:03-09, 66:04-08).
26. Mr. Johnson testified that he was asleep in his room from
about 9:00 or 10:00 a.m. until he woke at about 3:30 or 3:45 p.m. Id.
at 17 (Johnson Dep. 62:08-64:14). He stated that, when he woke,
he cleaned his room, found the scissors, and injured himself. Id.
at 17-18 (Johnson Dep. 64:18-66:08). Mr. Johnson responded “I
don’t remember” or “I don’t recall” to the following questions:
“Were there people that would come and clean your room or your
bathroom during the time you were a patient?” Id. at 17 (Johnson
Dep. 64:01-02); “[D]o you know whether any staff checked in on

14a
Appendix A
According to the record evidence, no one saw scissors
in Mr. Johnson’s bathroom prior to the incident. During the
post-incident investigation, the housekeeping contractor
who cleaned Mr. Johnson’s bathroom in the morning of
March 18 reported that he did not observe any unusual
items and that he did not have scissors on his cleaning
cart or on his person. 27 The daily documentation of nurse
rounds “indicates that the bathroom had been checked
for safety at 7 AM and at 3 PM on 3/18 as part of the
shift to shift handoff.” 28 Nurse Azcueta testified that she
checked the bathroom at the start of the afternoon shift
on March 18 and that she did not find any contraband.
The defendants admit, in their response to Mr. Johnson’s
proposed findings of fact, that a nursing assistant
conducted a well-being check just fifteen minutes prior
to the incident. 29
you while you were sleeping that day?” Id. (Johnson Dep. 64:15-16);
“And did you see any staff members between when you woke up
and when you injured yourself?” Id. at 18 (Johnson Dep. 66:01-03).
27. The contractor also affirmed that the cleaning cart was
always within his control or locked.
28. R.78-2 at 9. The Root Cause Analysis and Improvement
Plan, developed by MHC following the incident, notes that
“interviews with staff ... suggested that while the sheets may be
initialed, the checks are not always done.” Id. Bergerson testified
that this statement referred to finding that rounds were not done
in a standardized way and not that rounds were not done at all.
29. Nurse Azcueta testified that she checked the bathroom
during the well-being check in question. Later, she testified that
a nursing assistant might have been the individual who did the
well-being check. Nurse Rimmer testified that such was the case.
The nursing assistant was not deposed.

15a
Appendix A
The record contains testimony that Mr. Johnson
might have obtained scissors from somewhere other
than his bathroom. Nurse Karen Rimmer testified that,
when Mr. Johnson returned to MHC, he told her first
that he found the scissors at Froedtert Hospital before
he altered his story and said that he had found them
in his bathroom. 30 Mr. Johnson testified that he did
not remember this conversation. 31 Others stated that
rubberized office scissors were kept in an electrical-type
box located inside the nurse’s office; although the box was
inside a locked or otherwise nurse- supervised office, the
box itself was unlocked. Nurses also testified that metalhandled medical scissors were kept in a box or drawer in
the treatment room. There also is evidence that, beyond
patient treatment, the exam room was used at times as
an “overflow interview room[], for patient phone calls
and for lab draws.” 32 MHC staff testified that patients
always were supervised while in the treatment room
and that the room was locked when not in use. Finally,
Nurse Ellison, charged with the initial investigation into
the incident, reported that he had observed Mr. Johnson
talking to a housekeeping contractor around 1:45 p.m.
30. See R.69-10 at 8 (Rimmer Dep. 27:04-06). Nurse Rimmer
also testified that she had been told that Mr. Johnson went to
Froedtert Hospital at some point prior to March 18. According
to the Root Cause Analysis and Improvement Plan, “[t]he patient
did not leave the unit during his stay.” R.78-2 at 8. Nurse Azcueta
testified that Mr. Johnson had an appointment scheduled on March
12 but that the appointment was rescheduled to March 19.
31. See R.69-1 at 19 (Johnson Dep. 72:04-07).
32. R.78-2 at 9.

16a
Appendix A
on March 18. 33 During Nurse Ellison’s investigation, this
contractor explained that he knew Mr. Johnson, but had
not seen him for a few years. The contractor recounted
that Mr. Johnson “was smiling” and said, “I have to tell
you something,” but that the contractor told him he could
not talk at that time. 34 According to the contractor, the
exchange lasted no more than five minutes. MHC’s entire
investigation into the incident was unable to determine
the source of the scissors.
B.
On November 5, 2014, Mr. Johnson brought this action
against the MHC, its employees and officials, Milwaukee
County, and the Milwaukee County Department of
Health and Human Services seeking damages for the
injuries he suffered while in the care of MHC. In the
first of his two federal claims under 42 U.S.C. § 1983,
Mr. Johnson alleged that the defendants’ inadequate
medical care deprived him of his right to substantive due
process. According to Mr. Johnson, the defendants’ care
was constitutionally inadequate because removing him
from 1:1 observation status and allowing him to possess
scissors created the circumstances that permitted him to
injure himself. Second, relying on Monell v. Department
of Social Services, 436 U.S. 658, 98 S. Ct. 2018, 56 L. Ed.
2d 611 (1978), Mr. Johnson alleged that MHC, Milwaukee
County, and its Department of Health and Human
33. The housekeeping contractor estimated this conversation
occurred at 3:00 p.m.
34. R.78-18 at 10.

17a
Appendix A
Services maintained unconstitutional policies, procedures,
and customs that had caused his injuries. Relatedly, Mr.
Johnson claimed that the defendants conspired to cover up
their constitutionally inadequate care. Mr. Johnson also
brought state-law claims arising out of the same event.
In due course, the defendants moved for summary
judgment. They contended that, because Mr. Johnson
voluntarily had committed himself to MHC, he had no
substantive due process rights under the Fourteenth
Amendment. Moreover, they continued, any such claims
failed on the merits. Removing Mr. Johnson from 1:1
observation, they submitted, was simply a matter of
professional judgment. Under our decision in Collignon
v. Milwaukee County, 163 F.3d 982 (7th Cir. 1998), they
submitted, removing him from such close observation was
not such a serious departure from accepted practice as
to constitute a constitutional deprivation. With respect to
access to the scissors, the defendants contended that Mr.
Johnson could not “cite to any evidence to suggest that
the scissors he used to sever his penis were deliberately
left for him to find.” 35 Consequently, they argued, he was
“left with nothing more than a claim that the scissors
were accidentally or inadvertently left behind,” and
“inadvertence [wa]s insufficient to sustain a § 1983
claim.” 36
In his opposition to the motion for summary judgment,
Mr. Johnson contended that there was sufficient evidence
35. R.67 at 15.
36. Id.

18a
Appendix A
to permit a jury to conclude that, by removing him from 1:1
observation, the defendants were deliberately indifferent
to his serious medical condition. With respect to access to
the scissors, Mr. Johnson contended that he was “entitled
to the reasonable inference that a nurse left her bandage
scissors in his bathroom.” 37 “At a minimum,” Mr. Johnson
continued, “there [wa]s a reasonable inference ... that the
three nurses identified as conducting bandage changes in
[his] room, George, Azcueta and Plum were deliberately
indifferent or recklessly disregarded [his] needs.”38 Other
than noting that Nurse George’s bandage change was
closest in time to his incident of self-harm, Mr. Johnson
did not suggest how a jury might conclude that it was more
likely than not that a particular nurse left the scissors
in the bathroom.
The district court granted the defendants’ motion.
It held that Mr. Johnson could not sustain his claim
regarding his removal from 1:1 care because no jury could
find, on the record made by the parties, that the medical
staff’s decision was a substantial departure from accepted
professional norms. The court concluded that, at most, the
facts showed that removing Mr. Johnson from 1:1 care was
negligent, and mere negligence is not sufficient to sustain
a constitutional claim. The district court also held that
Mr. Johnson could not go forward with his claim that the
defendants deprived him of substantive due process by
exposing him to the scissors. It reasoned that mistakenly
37. R.76 at 19 (emphasis added) (capitalization and bold
removed).
38. Id. at 21 (emphasis added).

19a
Appendix A
leaving scissors in the bathroom was only negligence. The
court also noted that, regardless, Mr. Johnson failed to
submit sufficient proof that any individual defendant was
personally responsible for the scissors ending up in his
possession. 39
The district court also rejected Mr. Johnson’s Monell
claim and conspiracy claim. With no other federal
claims remaining, the district court declined to exercise
supplemental jurisdiction over Mr. Johnson’s state-law
claims. Mr. Johnson timely appealed. He only challenges
the district court’s decision in favor of two individual
defendants: Dr. David Macherey and Nurse Ade George.
II.
DISCUSSION
We review the district court’s decision on summary
judgment de novo. E.T. Prods., LLC v. D.E. Miller
Holdings, Inc., 872 F.3d 464, 467 (7th Cir. 2017). Summary
judgment is proper when the moving party demonstrates
that there is no genuine dispute as to any material fact
and that it is entitled to judgment as a matter of law. Fed.
R. Civ. P. 56(a). “A genuine issue of material fact exists
when the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Carmody v.
Bd. of Trs. of Univ. of Ill., 893 F.3d 397, 401 (7th Cir.
2018) (internal quotation marks omitted). “[A] court may
39. Because the district court found there was no violation of
Mr. Johnson’s rights, it did not address whether he had substantive
due process rights as a voluntarily admitted patient in the first
place.

20a
Appendix A
not make credibility determinations, weigh the evidence,
or decide which inferences to draw from the facts; these
are jobs for a factfinder.” Payne v. Pauley, 337 F.3d 767,
770 (7th Cir. 2003). When ruling on a motion for summary
judgment, we, like the district court, view the record in the
light most favorable to the nonmoving party. Id. However,
“inferences that are supported by only speculation or
conjecture will not defeat a summary judgment motion.”
Carmody, 893 F.3d at 401 (internal quotation marks
omitted).
A.
Before we address the merits of Mr. Johnson’s
specific substantive due process claims,40 we first outline
the general contours of the constitutional protections
he asserts. In DeShaney v. Winnebago County Social
Services Department, 489 U.S. 189, 109 S. Ct. 998, 103
L. Ed. 2d 249 (1989), the Supreme Court determined that
the Due Process Clause of the Fourteenth Amendment
40. In his reply brief, Mr. Johnson argues that the State
violated his rights to procedural due process because it did not
follow its procedures when committing him. Mr. Johnson forfeited
this argument by raising it for the first time on appeal and in
his reply brief. See Williams v. Dieball, 724 F.3d 957, 961 (7th
Cir. 2013) (“[A] party may not raise an issue for the first time
on appeal.”) (quoting Fednav Int’l Ltd. v. Cont’l Ins. Co., 624
F.3d 834, 841 (7th Cir. 2010)). Mr. Johnson’s attempt to shoehorn
this argument into the voluntariness analysis, see Reply Br.
2 (“Johnson’s confinement was not voluntary because he was
denied all procedural due process rights” (bold omitted)), does
not affect the result: as discussed above, the voluntary nature of
Mr. Johnson’s commitment is not a question we need to decide.

21a
Appendix A
“generally confer[s] no affirmative right to governmental
aid, even where such aid may be necessary to secure life,
liberty, or property interests of which the government
itself may not deprive the individual.” Id. at 196.
“[N]othing in the language of the Due Process Clause,”
said the Court, “requires the State to protect the life,
liberty, and property of its citizens against invasion
by private actors.” Id. at 195. Instead, “[t]he Clause is
phrased as a limitation on the State’s power to act, not
as a guarantee of certain minimal levels of safety and
security.” Id.
DeShaney does note, however, that “in certain
limited circumstances[,] the Constitution imposes upon
the State affirmative duties of care and protection with
respect to particular individuals.” Id. at 198. First, due
process rights arise when there is a special relationship
between the government and the individual. Second, the
state is constitutionally obligated to provide aid where it
has created the danger. Mr. Johnson submits that both
exceptions apply. He contends that Dr. Macherey and
Nurse George can be liable under the special relationship
exception because he was “not free to leave MHC’s
custody.”41 Moreover, he argues that Nurse George
affirmatively placed him in a danger he otherwise would
not have faced.
1.
“When a state actor ... deprives a person of his ability
to care for himself by incarcerating him, detaining him,
41. Appellant’s Br. 34.

22a
Appendix A
or involuntarily committing him, it assumes an obligation
to provide some minimum level of well-being and safety.”
Collignon v. Milwaukee Cty., 163 F.3d 982, 987 (7th Cir.
1998) (citations omitted). This obligation includes meeting
the person’s medical needs while he is in custody. Id. at
988-89.
To determine whether the state provided adequate
care, the Supreme Court requires that we “make certain
that professional judgment in fact was exercised.”
Youngberg v. Romeo, 457 U.S. 307, 321, 102 S. Ct. 2452,
73 L. Ed. 2d 28 (1982) (internal quotation marks omitted).
This review is deferential: a professional’s decision42 “is
presumptively valid” and “liability may be imposed only
when the decision by the professional is such a substantial
departure from accepted professional judgment, practice,
or standards as to demonstrate that the person responsible
actually did not base the decision on such a judgment.”
Id. at 323.
In a medical context, the Youngberg professional
judgment standard first requires that the plaintiff show
that his medical need was objectively serious. Collignon,
163 F.3d at 989. Then, the plaintiff must prove that the
treatment decision was a substantial departure from
42. The Court defined a professional as “a person competent,
whether by education, training or experience, to make the
particular decision at issue” and contemplated that someone with
a degree in medicine or nursing was such a person in the case of
treatment decisions. Youngberg v. Romeo, 457 U.S. 307, 323 n.30,
102 S. Ct. 2452, 73 L. Ed. 2d 28 (1982).

23a
Appendix A
the accepted professional standard. 43 Id. A plaintiff
does so by establishing “(1) that the professional knew
of the serious medical need, and (2) disregarded that
need.” Id. Knowledge can be proved if the trier of fact
can conclude the plaintiff’s medical need was “obvious.”
Id. Disregard of that need can be proved “only if the
professional’s subjective response was so inadequate that
it demonstrated an absence of professional judgment, that
is, that no minimally competent professional would have
so responded under those circumstances.” Id.44
43. Mr. Johnson submits that the professional judgment
standard “requires a showing of something more than negligent
wrongdoing but something less than intentional wrongdoing—
something akin to criminal recklessness.” Appellant’s Br. 31.
Although we have used this language when describing the
deliberate indifference standard, see Collignon, 163 F.3d at 988,
determining that Dr. Macherey or Nurse George violated Mr.
Johnson’s substantive due process rights requires the more specific
professional judgment standard, which applies to professionals
like “physicians, psychiatrists, and nurses within their area of
professional expertise.” Id. at 989. We have been clear that this
standard asks whether the medical professional substantially
departed from accepted professional standards. See King v.
Kramer, 680 F.3d 1013, 1018-19 (7th Cir. 2012).
44. Dr. Macherey and Nurse George argue that we need not
consider whether the evidence establishes the special relationship
exception to DeShaney’s general rule. According to Dr. Macherey
and Nurse George, Mr. Johnson voluntarily committed himself
to MHC and, therefore, the special relationship exception is
inapplicable here. Courts generally agree that individuals who
voluntarily admit themselves to a state-run mental health facility
do not have substantive due process rights simply because they are
in the state’s custody. See, e.g., Campbell v. State of Washington

24a
Appendix A
2.
The state-created danger exception to the rule in
DeShaney is also well established.
We have established a three-part test for such claims.
King ex. rel King v. E. St. Louis Sch. Dist. 189, 496 F.3d
812, 817-18 (7th Cir. 2007). 45 First, “the state, by its
DSHS, 671 F.3d 837, 843 (9th Cir. 2011) (“Mere custody, however,
will not support a special relationship claim where a person
voluntarily resides in a state facility under its custodial rules.”
(internal quotation marks omitted)); Torisky v. Schweiker, 446
F.3d 438, 446 (3d Cir. 2006) (“[A] custodial relationship created
merely by an individual’s voluntary submission to state custody is
not a ‘deprivation of liberty’ sufficient to trigger the protections
of Youngberg.”); Brooks v. Giuliani, 84 F.3d 1454, 1466-67 (2d
Cir. 1996) (holding there was no “duty to exercise professional
judgment” because the plaintiffs were not under a “state-imposed
restraint” (internal quotation marks omitted)).
We have not addressed directly the extent to which the
voluntariness of one’s committal to the state’s custody bears on
due process rights under DeShaney. Like the district court, we do
not need to determine whether a voluntary commitment can be de
facto involuntary for the purposes of the Due Process Clause or
whether Mr. Johnson’s commitment was functionally involuntary.
As we will discuss later, even if Mr. Johnson has due process rights
under the special relationship exception, he cannot show that Dr.
Macherey and Nurse George deprived him of those rights.
45. In King ex. rel King v. E. St. Louis Sch. Dist. 189, 496
F.3d 812, 817 n.3 (7th Cir. 2007), we noted that the circuits apply
the state-created danger doctrine differently. We determined that
the variations among the circuits did not “reflect fundamental
doctrinal differences” because all approaches limit liability to

25a
Appendix A
affirmative acts, must create or increase a danger faced by
an individual.” Id. at 818. Second, “the failure on the part of
the state to protect an individual from such a danger must
be the proximate cause of the injury to the individual.”
Id. Third, “the state’s failure to protect the individual
must shock the conscience.” Id. “Only ‘the most egregious
official conduct’ will satisfy this stringent inquiry. Making
a bad decision, or even acting negligently, does not suffice
to establish the type of conscience-shocking behavior that
results in a constitutional violation.” Jackson v. Indian
Prairie Sch. Dist. 204, 653 F.3d 647, 654-55 (7th Cir.
2011) (quoting Cty. of Sacramento v. Lewis, 523 U.S. 833,
846, 118 S. Ct. 1708, 140 L. Ed. 2d 1043 (1998)) (citation
omitted). Unlike the special relationship exception,
custody or lack thereof plays no role in the state-created
danger analysis. See Martin v. Shawano-Gresham Sch.
Dist., 295 F.3d 701, 708 (7th Cir. 2002).
B.
Turning to Mr. Johnson’s claims against Dr.
Macherey, Mr. Johnson contends that Dr. Macherey
provided inadequate medical care, in violation of his due
process rights, by removing him from 1:1 observation
status. Analyzed under either of the exceptions to
the DeShaney rule, our inquiry is basically the same:
whether Dr. Macherey knew that Mr. Johnson suffered
from an objectively serious condition and whether Dr.
Macherey responded to that knowledge in a way “no
“conduct that violates an individual’s substantive due process
rights” by being “arbitrary in the constitutional sense, i.e., shocks
the conscience.” Id.

26a
Appendix A
minimally competent” medical professional “would have
so responded under those circumstances.” Collignon, 163
F.3d at 989 (reviewing actions under professional judgment
exception); Jackson, 653 F.3d at 654-55 (observing that
a “bad decision” does not suffice to show a state-created
danger; instead, when “public officials have time for
reasoned deliberation in their decisions, the officials’
conduct will only be deemed conscience shocking when
it ‘evinces a deliberate indifference to the rights of the
individual’” (quoting King ex rel. King, 496 F.3d at 819)).46
No one disputes that Mr. Johnson’s medical condition
was objectively serious or that Dr. Macherey knew of
Mr. Johnson’s condition. Thus, we focus on whether no
minimally competent medical professional would have
removed Mr. Johnson from 1:1 care. We conclude that
no reasonable fact finder could find that Dr. Macherey’s
decision was outside the bounds of a competent medical
professional’s judgment.
Mr. Johnson points to several facts that, in his view,
would support a jury’s determination that Dr. Macherey
failed to exercise the constitutionally required level of
professional judgment. First, Mr. Johnson expressed his
wish to harm himself at least six to eight times while at
MHC, including two days prior to his removal from 1:1
observation. Second, on the day after his arrival at MHC,
Mr. Johnson managed to find a metal object and briefly
insert it into his pants, stating that “he wanted to die”
46. See Appellant’s Br. 30 (noting that “[u]nder either
standard, a claim against a health care provider acting within
his or her area of expertise requires a showing that the provider
failed to exercise ‘professional judgment’” and citing Collignon).

27a
Appendix A
and that “[i]t hurts.”47 Third, at the time he was removed
from 1:1 care, Mr. Johnson’s nurses documented that he
was depressed, was overwhelmed, and still demonstrated
loose associations. Similarly, Mr. Johnson had not yet met
his treatment plan’s goal of showing reality-based thinking
without auditory hallucinations when he was removed
from 1:1 care. Fourth, one of Mr. Johnson’s caregivers at
MHC, Nurse Rimmer, testified that she disagreed with
the decision to remove Mr. Johnson from 1:1 care but was
not asked her opinion prior to the decision. Likewise, Mr.
Johnson’s expert opined that it was “premature” to remove
Mr. Johnson from 1:1 observation and that Mr. Johnson
should have remained on that status for “another couple
of weeks” and not a “matter of a couple of days.”48 Fifth,
Nurse Rimmer testified that, after the incident, one of
her supervisors said that the physicians had concerns
about the cost of 1:1 observations.49 Sixth, Dr. Macherey
described in his own testimony that people with bipolar
disorder can have periods of fairly stable behavior. Finally,
47. R.69-6 at 14 (Azcueta Dep. 48:11-49:11).
48. R.79-11 at 34-35 (Dunn Dep. 118:05-07, 120:10-13).
49. This is an out of court statement offered for the truth
of the matter asserted. We do not need to determine whether it
falls outside of the definition of hearsay or within an exception
to the hearsay rule because, even accepting that costs were
a consideration, Mr. Johnson cannot show that no minimally
competent medical professional would have removed him from
1:1 care. See Petties v. Carter, 836 F.3d 722, 730 (7th Cir. 2016)
(noting that “cost of treatment is a factor in determining what
constitutes adequate, minimum-level care” as long as medical
personnel do not “simply resort to an easier course of treatment
that they know is ineffective”).

28a
Appendix A
Mr. Johnson first harmed himself just sixty hours after
being discharged from his prior voluntary stay at MHC
in February.
We must assess the record in the light most favorable
to Mr. Johnson, the nonmovant. We therefore accept the
facts proffered by Mr. Johnson and make all reasonable
inferences from those facts. But we do not ignore the
other evidence suggesting that at least some minimally
competent doctors would have, like Dr. Macherey, removed
Mr. Johnson from 1:1 observation status. Over the course
of his care at MHC, Mr. Johnson underwent frequent
assessments, and his medical team noted several facts
indicating an improving condition, including that (1) after
stating that he still wished to remove his genitals on the
morning of March 14, Mr. Johnson stopped mentioning
that he intended to harm himself and denied, on multiple
occasions to different MHC staff, that he had any harmful
ideations; (2) during a March 15 treatment meeting
with his treatment team, Mr. Johnson was cooperative,
articulated a desire for therapy, was future-oriented,
exhibited organized thinking, and identified personal
strengths and goals; (3) starting on March 15, Mr. Johnson
reported multiple times that his hallucinations were
becoming cloudy and less troublesome; (4) on the night
of March 15, Mr. Johnson reported that his medications
were working; (5) on the day he was removed from 1:1
care, March 16, Mr. Johnson had denied any ideations of
self-harm for almost two days; (6) over time, Mr. Johnson
began to show a brighter affect and engage positively with
other patients in the unit; and (7) Mr. Johnson had started
sleeping better and eating more.

29a
Appendix A
Dr. Macherey, moreover, did not make the decision
to remove Mr. Johnson from 1:1 observation unilaterally;
Dr. Harding concurred with Dr. Macherey’s assessment
that Mr. Johnson had improved enough to be removed
from 1:1 observation and other members of Mr. Johnson’s
treatment team did not object to Dr. Macherey’s decision.
Mr. Johnson’s own expert, despite his ultimate conclusion
that removing Mr. Johnson from 1:1 care was premature,
also testified that the intrusive nature of 1:1 observation
can be harmful to the patient, that there are no established
standards in the field of psychiatry for the use of 1:1
observation, and that removing a person from 1:1 care is
a legitimate course of treatment. Finally, Dr. Macherey’s
expert opined that the decision to remove Mr. Johnson
from 1:1 care was reasonable.
Dr. Macherey testified that he believed that Mr.
Johnson’s condition had improved sufficiently to justify his
removal from 1:1 observation. Specifically, Dr. Macherey
noted that Mr. Johnson was no longer ignoring his medical
problems, that he had showed an appreciation for his prior
actions, and that he had stopped expressing an intent to
harm himself.
Considering Mr. Johnson’s documented improvement,
the consensus of his treatment team that removing him
from 1:1 observation was appropriate, and the recognition
that, at some point, 1:1 care is too restrictive for the
patient, a reasonable factfinder could not find that no
minimally competent doctor would have made the same
decision. As we have said, “evidence that some medical
professionals would have chosen a different course of

30a
Appendix A
treatment is insufficient to make out a constitutional
claim.” Petties v. Carter, 836 F.3d 722, 729 (7th Cir. 2016).
We make no determination as to whether Dr. Macherey
was negligent; the Due Process Clause requires that
Mr. Johnson demonstrate a more egregious lapse of
professional performance. See Pyles v. Fahim, 771 F.3d
403, 409 (7th Cir. 2014); Jackson, 653 F.3d at 654-55. The
district court correctly granted summary judgment in
favor of Dr. Macherey on Mr. Johnson’s constitutional
claim.
C.
We next examine Mr. Johnson’s constitutional claim
against Nurse George. He submits two theories of liability.
First, he argues that Nurse George violated his due process
rights by providing inadequate medical care. Second, he
contends that Nurse George affirmatively placed him in
a position of danger in which he otherwise would not have
been.50 Both theories require, in the end, that Mr. Johnson
establish that Nurse George left the scissors used by Mr.
Johnson to harm himself in his bathroom, despite her
being aware of the specific risks that sharp objects posed
to him. However, on the basis of the record made in the
district court, no reasonable factfinder could determine
that Nurse George, as opposed to another treating nurse,
left the scissors that Mr. Johnson eventually used.
50. Mr. Johnson did not make this argument before the
district court. The defendants, however, do not argue that Mr.
Johnson forfeited his state-created danger theory by failing to
raise it in the district court. Further, they have fully briefed
the issue before us and presented defenses at oral argument.
Consequently, we will address the argument on appeal.

31a
Appendix A
In an action under § 1983, the plaintiff must establish
individual liability. See Estate of Perry v. Wenzel, 872
F.3d 439, 459 (7th Cir. 2017). Thus, Mr. Johnson must be
able to establish Nurse George’s “personal involvement
in the alleged constitutional deprivation.” Colbert v. City
of Chicago, 851 F.3d 649, 657 (7th Cir. 2017). Before the
district court, however, Mr. Johnson did not argue that
there was sufficient evidence from which a jury could
conclude by a preponderance of the evidence that Nurse
George was the nurse who left the scissors in his bathroom.
Rather, he simply argued that the district court should
make a “reasonable inference that a nurse left her bandage
scissors in his bathroom” and maintained, simultaneously,
that Nurse George or Nurse Azcueta or Nurse Plum left
the scissors. 51 Mr. Johnson did not point to any evidence
that would allow the jury to winnow the field from three to
one, nor did he otherwise explain how a jury could choose
from among these three possible tortfeasors. We agree
with the district court’s conclusion: the fact “[t]hat one of
three individuals (only two of whom are defendants) may
have left scissors in Johnson’s bathroom is not enough to
establish individual liability.”52
Mr. Johnson did not submit sufficient evidence to
establish that a jury could find by a preponderance of the
evidence that Nurse George left scissors in his bathroom.
Accordingly, we must affirm the grant of summary
judgment.
51. R.76 at 18, 20 (emphasis added) (capitalization and bold
removed).
52. R.88 at 9-10.

32a
Appendix A
Conclusion
The district court correctly granted the defendants’
motion for summary judgment. Its judgment is therefore
affirmed.
AFFIRMED

33a
Appendixand
B order of the
Appendix b — decision
united states district court for the
eastern district of wisconsin,
filed august 18, 2018
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
Case No. 14-C-1408
LLOYD JOHNSON,
Plaintiff,
v.
KAREN RIMMER, et al.,
Defendants.
DECISION AND ORDER
In 2012, plaintiff Lloyd Johnson was involuntarily
committed for inpatient psychiatric treatment through
the Behavioral Health Division (BHD) of the Milwaukee
County Department of Health and Human Services
(DHHS). Johnson was treated at the Milwaukee County
Mental Health Complex (MHC), and while there, obtained
a scissors and used it to sever his penis. He brings this
suit under 42 U.S.C. § 1983 against various MHC officials
and employees, Milwaukee County, DHHS, and MHC
alleging personal and municipal liability for deprivations
of his Fourteenth Amendment rights. He also alleges
violations of state constitutional, statutory, and common

34a
Appendix B
law. Defendants move for summary judgment on Johnson’s
federal claims and ask that, if summary judgment is
granted, I decline to exercise jurisdiction over his state
claims.
I. BACKGROUND
Johnson started suffering from mental illness,
including pa ranoid schizophrenia and recur rent
depression, in 2011, though he has had obsessive thoughts
about his genitals since childhood. Johnson was voluntarily
admitted or involuntarily committed to MHC from July 8
to July 10, 2011, with complaints of paranoia and auditory
hallucinations; from July 23 to July 24, 2011, due to suicidal
statements; and from February 28 to February 29, 2012,
with complaints of depression and suicidal thoughts.
On March 3, 2012, while staying at his step-mother’s
house, Johnson used a scissors to cut off his testicles,
earlobes, and a portion of the skin on his penis. Johnson
was admitted to Froedtert Hospital in Milwaukee County.
His wounds required daily care, including regular
dressing (bandage) changes.
On March 8, Johnson was involuntarily admitted
to MHC under a petition for emergency detention. See
Wis. Stat. § 51.15. He was transferred from Froedtert to
MHC the next morning and assigned a private room with
a bathroom on MHC’s Intensive Treatment Unit (ITU),
an inpatient unit where high-risk patients are treated.
Johnson was placed on a one-to-one observation status
(or simply, “1:1”). Patients on 1:1 are continuously watched

35a
Appendix B
by a member of MHC’s nursing staff, even when they are
asleep or using the bathroom.
On March 9, defendant David Macherey, a psychologist
and ITU’s treatment director, saw Johnson for an initial
assessment. Macherey determined that Johnson was
experiencing delusional thoughts, auditory hallucinations,
poor sleep, difficulty with concentration and attention,
poor self-esteem, and impaired judgment. He concluded
that Johnson was at significant risk for self-harm.
Defendant Thomas Harding, a psychiatrist and MHC’s
medical director, also saw Johnson that day. Macherey
and Harding decided to keep Johnson on 1:1. Harding
prescribed Johnson medication, including Zyprexa, an
antipsychotic used to treat conditions like schizophrenia
and bipolar disorder, and Ativan, an antianxiety drug.
On March 12, Macherey assessed Johnson again.
He noted that Johnson showed no insight into the
dangerousness of his behavior and should remain on
1:1. On March 13, Macherey again assessed Johnson.
Macherey noted that Johnson’s affect was brighter, his
thinking was increasingly organized, and he expressed
disappointment in himself for acting on his thoughts of
self-harm. However, Macherey also noted that Johnson
was still having intermittent thoughts about cutting
off his genitals. Macherey kept Johnson on 1:1. That
day, the petition for Johnson’s emergency detention
was withdrawn, and Johnson signed an application for
voluntary admission to MHC, which Macherey approved.
On March 14, Macherey learned that Johnson had said
that morning that he was still thinking about “finishing

36a
Appendix B
the job” (that is, further mutilating his genitals). Due to
Johnson’s statement, Macherey kept him on 1:1. That
evening, Johnson told a nurse that his medications were
not helping him but declined to answer her questions about
whether he was having auditory hallucinations.
On March 15, Johnson met with his entire treatment
team, including Macherey and Harding, a registered
nurse named Mary Holtz, a psychiatric social worker
named Candace Coates, and an occupational therapist
named Sue Erato.1 Johnson was noted as cooperative with
his treatment, he said that his medications were helpful
and that his auditory hallucinations had become “cloudy”
and less troublesome, and he denied having had thoughts
of self-harm since the day before. Harding observed
that Johnson seemed to be doing better and was futureoriented and noted that Johnson articulated a desire for
therapy to address his self-esteem issues, denied suicidal
ideations, was able to articulate personal strengths and
goals, and was sleeping better, though he also found that
Johnson’s thoughts were still somewhat disorganized.
Holtz noted that Johnson had expressed disbelief to her
about what he had done to himself on March 3 and stated
that Johnson was still reporting “bizarre thoughts” as of
that day but that he also said that he was experiencing far
less “background noise,” his thinking was “not so cloudy,”
and he was not having any thoughts of self-harm or suicide.
On March 16, Macherey again assessed Johnson.
Macherey noted that Johnson remained depressed but
1. Holtz, Coates, and Erato are not defendants.

37a
Appendix B
that he continued to deny any suicidal ideation or thoughts
of self-harm. Macherey observed what he believed to be
a consistent decrease in Johnson’s symptoms and overall
improvement of his mental condition. Holtz, who cared
for Johnson that day, noted that Johnson was feeling
depressed about the harm that he had done to himself
and overwhelmed at the extent of his medical problems
but that he stated that his thoughts were reality-based
and that he was not having any thoughts of self-harm.
Macherey believed that Johnson’s concerns about the
extent of his medical problems indicated improvement
in his condition. He felt that Johnson had demonstrated
sufficient improvement in his condition to show that he
no longer needed 1:1. The other members of Johnson’s
treatment team agreed. That afternoon, Macherey
ordered Johnson to be removed from 1:1. From that point,
Johnson was not constantly monitored but instead was
subject to checks by ITU staff every 15–30 minutes.
Neither Macherey nor Harding saw Johnson over
the weekend of March 17–18, 2012, but the registered
nurses assigned to care for him documented his mood,
behavior, and condition. That Friday, Paul Saeger (who is
not a defendant) noted no unsafe behavior. That Saturday,
defendant Ade George noted that Johnson denied any
suicidal ideation or need to mutilate his genitals and that
she did not observe any self-harm or other behavioral
issues, defendant Remedios Azcueta noted that Johnson
was depressed and his mood was blunted, and defendant
Leslie Roberts noted that his mood was pleasant early
in her shift but that he was tearful and anxious later on.

38a
Appendix B
That Sunday, March 18, George noted that Johnson’s
affect was flat but better than the day before and that
Johnson continued to express regret about the harm he
had caused himself. She also noted that Johnson denied
having any auditory hallucinations, suicidal ideation, or
thoughts of self-harm. Defendant Rebecca Brame (now
Rebecca Hoey) noted that she spoke with Johnson, who
talked about basketball and his mother and indicated that
he could not go home because his mother was afraid of
him. About their conversation, Hoey also wrote, “Regrets.
‘I can’t have thoughts like this. It’s not good for me.’” See
Hoey Dep., ECF No. 69-8, at 41:20–42:3.
Azcueta was assigned to care for Johnson starting
at 2:45 that afternoon. During the first hour of her shift,
Azcueta went to Johnson’s room to check in on him at least
twice. He was in bed both times but said that he was “okay”
and “fine,” when asked. Around 3:45, Johnson was in bed
with his eyes closed, but Azcueta entered his room and
asked him how he was. Johnson opened his eyes but did not
respond. She checked his bathroom and the surrounding
area but did not see anything unusual. During that shift,
defendant Nii Adamah, a certified nursing assistant,
was assigned to monitor the “zone” within the ITU that
included Johnson’s room and documented Johnson’s
location at 15-minute intervals throughout the shift.
At 4:00, Johnson approached the ITU’s nursing
station, bleeding, holding a scissors and his severed
penis. Staff called for an emergency response team and
paramedics, who transferred Johnson back to Froedtert,
where his penis was surgically reattached.

39a
Appendix B
MHC officials conducted a root cause analysis and
found that “the exact circumstances of how [Johnson]
obtained the scissors could not be determined.” See ECF
No. 78-2, at 8. The written report from that investigation
notes that “[Johnson] stated after the event that he ‘found’
the scissors in his bathroom [but] had no idea how they got
there.” Id. at 9. Johnson said much the same thing during
his deposition in this case, testifying that right before he
harmed himself, he “found some scissors . . . [u]nder a
pair of dry . . . hand towel napkins” in his “[b]athroom”
but that he did not know how long they had been there,
how they got there, or who left them there. Johnson Dep.,
ECF No. 69-1, at 65:3–:9, 91:17–92:1.
II. DISCUSSION
Defendants move for summary judgment on Johnson’s
constitutional claims under § 1983 arguing that he cannot
show that “he was deprived of a right secured by the
Constitution . . . of the United States.” See BuchananMoore v. Cty. of Milwaukee, 570 F.3d 824, 827 (7th
Cir. 2009). I must grant a party’s motion for summary
judgment on “each claim . . . on which summary judgment
is sought,” “if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a). A
fact is “material” if it “might affect the outcome of the suit
under the governing law.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986). A fact dispute is “genuine”
if “the evidence is such that a reasonable jury could return
a verdict for the nonmoving party.” Id.

40a
Appendix B
A. Reasonable Care and Safety
Johnson argues that defendants deprived him of
his rights under the Fourteenth Amendment when they
removed him from 1:1, allowed him access to scissors,
and failed to properly verify his safety and the safety of
his environment. “When a state actor such as Milwaukee
County deprives a person of his ability to care for himself
by . . . involuntarily committing him, it assumes an
obligation to provide some minimum level of well-being
and safety.” Collignon v. Milwaukee Cty., 163 F.3d 982, 987
(7th Cir. 1998). Thus, state actors must provide “conditions
of reasonable care and safety” for “the involuntarily
committed.” Youngberg v. Romeo, 457 U.S. 307, 321, 324
(1982).
As an initial matter, defendants argue that Johnson
was not entitled to conditions of reasonable care and
safety under the Fourteenth Amendment when he
harmed himself because he was voluntarily admitted,
not involuntarily committed, at the time. Johnson
argues, to the contrary, that due to his mental illness
and condition, he was a “de facto involuntary patient,”
despite his formal status. I need not address this dispute
because, as discussed below, Johnson cannot show that he
suffered a constitutional deprivation under the Fourteenth
Amendment, even if he was involuntarily committed.
1. 	Removal from 1:1
Johnson argues that a reasonable jury could find that
the decision to remove him from 1:1 violated the Fourteenth

41a
Appendix B
Amendment, but I disagree. When an appropriate
professional makes a decision about the treatment or
conditions of confinement of an involuntarily committed
patient, the professional “is entitled to deference . . .
unless ‘no minimally competent professional’” would have
made the same decision under the circumstances. Sain
v. Wood, 512 F.3d 886, 894–95 (7th Cir. 2008) (quoting
Collignon, 163 F.3d at 988). A professional’s decision is
unconstitutional “only if it is such ‘a substantial departure
from accepted professional judgment, practice or
standards as to demonstrate’ that it was not, in fact, based
on professional judgment.” Lane v. Williams, 689 F.3d 879,
882 (7th Cir. 2012) (quoting Youngberg, 457 U.S. at 323).
Here, a team of mental-health professionals—including
a psychologist, a psychiatrist, a registered nurse, a
psychiatric social worker, and an occupational therapist—
agreed that it was appropriate to remove Johnson from 1:1
after a week of observation and treatment. Johnson does
not dispute that the decision to remove him from 1:1 was
“made by . . . appropriate professional[s],” id., but he does
dispute whether their decision was a legitimate exercise
of professional judgment.
First, Johnson argues that he was removed from
1:1 due to budgetary and staffing concerns, rather
than for legitimate clinical reasons. No reasonable jury
could infer that from the available evidence, though, as
Johnson offers nothing in support of this argument but
unsubstantiated rumors and inadmissible hearsay. See,
e.g., ECF No. 85, Defs.’ Resp. to Pl.’s Proposed Findings
of Fact, ¶ 47. Moreover, administrative factors, including

42a
Appendix B
“convenience and cost,” are “permissible factors . . . to
consider in making treatment decisions,” as long as they
are not “considered to the exclusion of reasonable medical
judgment.” Roe v. Elyea, 631 F.3d 843, 863 (7th Cir. 2011).
Nothing here suggests that the decision to remove Johnson
from 1:1 was made to the exclusion of reasonable medical
judgment.
Second, Johnson argues that the decision was
a substantial departure from accepted professional
judgment, practice, or standards. But the record does
not support such a conclusion. At most, a reasonable jury
could agree with Johnson’s proffered expert witness, Dr.
Mitchell Dunn, that the decision was negligent under the
circumstances. See Dunn Report, ECF No. 60-1, at 5–7.
Professional negligence is, by definition, a departure
from accepted professional practice or standards. See,
e.g., Medical Malpractice, in Black’s Law Dictionary
(10th ed. 2014). But mere negligence is not a substantial
enough departure to render a professional’s decision
unconstitutional. Rather, liability under the Fourteenth
Amendment requires deliberate indifference, “essentially
a criminal recklessness standard, that is, ignoring a
known risk.” See Collignon, 163 F.3d at 988. Nothing here
suggests deliberate indifference.
For the foregoing reasons, no reasonable jury could
find defendants liable under § 1983 for removing Johnson
from 1:1. Therefore, I will grant their motion for summary
judgment on Johnson’s claim that the decision violated the
Fourteenth Amendment.

43a
Appendix B
2. Access to Scissors
Johnson next argues that a reasonable jury could find
that a nurse left scissors in his bathroom in violation of the
Fourteenth Amendment. Johnson’s argument reduces to
the following: the scissors he used must have come from
somewhere, nurses on the ITU have access to scissors,
some nurses used scissors when changing dressings, and
some nurses changed Johnson’s dressing in his bathroom,
so a nurse probably left the scissors in his bathroom after
using them to change his dressing. He argues that George,
Azcueta, and a nurse practitioner named Barbara Plum
(who is not a defendant) are the most likely culprits.
Johnson’s argument fails for several reasons. First,
“[i]nferences that rely upon speculation or conjecture are
insufficient.” Armato v. Grounds, 766 F.3d 713, 719 (7th
Cir. 2014). Second, to prevail on a claim under § 1983, a
plaintiff must show that each defendant was personally
responsible for the claimed constitutional deprivation.
See Estate of Perry v. Wenzel, 872 F.3d 439, 459 (7th Cir.
2017). That one of three individuals (only two of whom are
defendants) may have left scissors in Johnson’s bathroom
is not enough to establish individual liability. Third, even
if one of these defendants did leave scissors in Johnson’s
bathroom, he hasn’t shown that her conduct was anything
more than negligent. As stated above, the Fourteenth
Amendment “is violated by acts or omissions that exhibit
deliberate indifference; mere negligence is insufficient.”
Aguilar v. Gaston-Camara, 861 F.3d 626, 633 (7th Cir.
2017).

44a
Appendix B
For the foregoing reasons, no reasonable jury could
find defendants liable under § 1983 for leaving scissors
in Johnson’s bathroom. Therefore, I will grant their
motion for summary judgment on Johnson’s claim that
defendants allowed him access to scissors in violation of
the Fourteenth Amendment.
3. 	Patient and Environmental Safety Checks
Johnson also argues that a reasonable jury could
find that defendants failed, in violation of the Fourteenth
Amendment, to either perform adequate safety checks or
to properly search his room for contraband. At the time,
BHD policy provided for three basic types of “rounds,”
during which staff were to perform such checks. First,
at the beginning of each shift, a licensed nurse was
required to “participate in . . . change of shift rounds,”
which included personally verifying “the whereabouts
and well-being of each patient” and checking that each
patient room and bathroom, among other areas, was
“safe and orderly.” See ECF No. 70-1, at 1. Second, every
15 minutes throughout each shift (but every 30 minutes
during night shifts), staff were required to conduct rounds,
verifying the location and well-being of each patient and
documenting each patient’s whereabouts. Id. at 1–2. Third,
twice per shift at specified times, staff were required to
conduct “environmental safety rounds,” which included
“checking unit bathrooms, bedrooms and showers for
safety.” ECF No. 70-2, at 5.
The record suggests that staff conducted their rounds,
as relevant to Johnson’s claims, before he harmed himself.

45a
Appendix B
Azcueta testified during her deposition that she personally
verified Johnson’s whereabouts and well-being at least
3 times during the first hour of her shift on March 18,
2012—including at 3:45 p.m., no more than 15 minutes
before he harmed himself—and that she checked his
bathroom but did not find anything unusual there. See
Azcueta Dep., ECF No. 79-7, at 23:18–:23, 29:2–:4. The
record also contains Adamah’s documentation of Johnson’s
whereabouts at 15-minute intervals throughout that shift.
See ECF No. 70-13.
Johnson argues that Azcueta did not conduct her
rounds on March 18, 2012, citing Rimmer’s deposition
testimony that “the nurse didn’t do her rounds.” Rimmer
Dep., ECF No. 79-5, at 36:3. But this vague testimony
does not clearly refer to Azcueta or specify what “rounds”
she supposedly did not do. Moreover, Johnson concedes
that Azcueta personally checked on him at 3:45 p.m. on
March 18, 2012, shortly before he harmed himself. See
Pl.’s Proposed Findings of Fact, ECF No. 77, ¶ 54.
Johnson also broadly disputes that staff conducted
rounds as required, citing the report of the root cause
analysis of the incident, which found that, despite facility
policies about rounds and checks, “[i]nterviews with
staff . . . suggested that while” they may document
that they completed checks, “the checks are not always
done.” See ECF No. 78-2, at 9. Without more, there is no
way to know whether or to what extent this finding is
relevant to Johnson’s claims. And, as discussed above,
personal liability under § 1983 requires proof of individual
misconduct, not the mere possibility of misconduct.

46a
Appendix B
Even assuming Azcueta, Adamah, or others failed
to conduct checks that could have prevented Johnson’s
injuries, he hasn’t shown anything more than negligence.
Again, liability under the Fourteenth Amendment
requires more than mere negligence. Aguilar, 861 F.3d
at 633.
No reasonable jury could find defendants liable
under § 1983 for failing, in violation of the Fourteenth
Amendment, to either perform adequate safety checks
or to properly search Johnson’s room for contraband.
Therefore, I will grant their motion for summary
judgment on his claim that they failed to properly verify
his safety and the safety of his environment.
B. Official Investigation and Root Cause Analysis
Johnson argues that defendants conspired to cover
up the truth about what happened to him and why by
conducting a “sham” investigation. Federal law “imposes
liability on two or more persons who ‘conspire . . . for the
purpose of depriving . . . any person’” of his or her federal
rights. Ziglar v. Abbasi, 137 S. Ct. 1843, 1866 (2017)
(omissions in original) (quoting 42 U.S.C. § 1985(3)).
Yet, as “there is no independent cause of action
for § 1983 conspiracy,” “[w]ithout a viable federal
constitutional claim, [a] conspiracy claim under § 1983
necessarily fails.” Katz-Crank v. Haskett, 843 F.3d 641,
650 (7th Cir. 2016). The claims discussed above, even if
they could survive summary judgment, cannot provide a
basis for Johnson’s conspiracy claim because the asserted

47a
Appendix B
deprivations all occurred before defendants supposedly
formed their conspiracy. Accordingly, Johnson must show
that he has some other viable constitutional claim on which
his conspiracy claim can rest.
Johnson argues that defendants’ conspiracy deprived
him of his constitutional right to seek judicial relief for
his injury. The Fourteenth Amendment protects “[t]he
right of individuals to pursue legal redress for claims
which have a reasonable basis in law and fact.” Vasquez
v. Hernandez, 60 F.3d 325, 328 (7th Cir. 1995). Thus, a
plaintiff has a viable claim where he can show that “state
action hindered his . . . efforts to pursue a nonfrivolous
legal claim and that consequently [he] suffered some actual
concrete injury.” May v. Sheahan, 226 F.3d 876, 883 (7th
Cir. 2000).
However, Johnson’s claim amounts to little more than
that perceived deficiencies and omissions in the root cause
analysis, records, and report—e.g., failure to sufficiently
investigate and accurately explain why he was removed
from 1:1—show that defendants’ investigation was plainly,
even deliberately, deficient. Whether that’s true, it’s not
enough: Johnson “does not have a constitutional right to
have [state actors] investigate his case at all, still less to
do so to his level of satisfaction.” Rossi v. City of Chicago,
790 F.3d 729, 735 (7th Cir. 2015).
That Johnson’s case might have “been better” if
defendants had conducted a more thorough investigation
is insufficient to support a claim for denial of the right to
pursue judicial relief. Id. Instead, Johnson must show that

48a
Appendix B
defendants “prevented a full and open disclosure of facts
crucial to the cause of action, rendering hollow [his] right
of access” to the courts. Vasquez, 60 F.3d at 329. Here,
Johnson has not shown that any facts, much less facts
crucial to his claims, were kept from him or otherwise
concealed. Thus, his claim for denial of access to the courts
necessarily fails.
Even if Johnson had a viable underlying constitutional
claim, though, his conspiracy claim would still fail because
he has not shown “that the defendants conspired—that is,
reached an agreement—with one another.” Ziglar, 137 S.
Ct. at 1868. The only evidence of conspiracy that Johnson
offers is Rimmer’s deposition testimony that she heard
“rumors . . . about a cover-up” by “the supervisors and
the nurses.” See Rimmer Dep., ECF No. 79-5, 30:7–31:5.
Rimmer does not identify the source of these rumors,
provide any specifics about the supposed cover-up, or so
much as hint at the membership of this apparent cabal
of supervisors and nurses. Without more, Johnson’s
conspiracy claim necessarily fails.
No reasonable jury could find that defendants
conspired to hide the truth about what happened to
Johnson and why or that they prevented him from seeking
relief for claims with a reasonable basis in law and
fact. Therefore, I will grant their motion for summary
judgment on Johnson’s claim that they conspired to and
did deprive him of his constitutional right of meaningful
access to the courts.

49a
Appendix B
C. Municipal Liability
Finally, Johnson argues that Milwaukee County,
DHHS, and MHC are liable under § 1983 and Monell v.
Dep’t of Soc. Servs., 436 U.S. 658 (1978), for his injuries.
See Thomas v. Cook Cty. Sheriff’s Dep’t, 604 F.3d 293, 303
(7th Cir. 2010) (discussing proper grounds for municipal
liability under Monell). “But a municipality cannot be liable
under Monell when there is no underlying constitutional
violation by a municipal employee.” Sallenger v. City of
Springfield, 630 F.3d 499, 504 (7th Cir. 2010).
As discussed above, not only has Johnson failed to
show that a reasonable jury could find any of the individual
defendants personally liable under § 1983, he has also
failed to show that any municipal employee committed any
constitutional violation for which he could be entitled to
relief under § 1983. Accordingly, I must grant defendants’
motion for summary judgment on Johnson’s § 1983 claims,
including his Monell claims.
D. State-Law Claims
Defendants ask that, after granting them summary
judgment on Johnson’s federal claims, I decline to exercise
supplemental jurisdiction over his state-law claims. See
28 U.S.C. § 1367(c)(3). “When federal claims drop out of
[a] case, leaving only state-law claims, the district court
has broad discretion to decide whether to keep the case
or relinquish supplemental jurisdiction over the state-law
claims.” RWJ Mgmt. Co. v. BP Prod. N. Am., Inc., 672
F.3d 476, 478 (7th Cir. 2012).

50a
Appendix B
“Although the decision is discretionary, ‘[w]hen all
federal claims in a suit in federal court are dismissed
before trial, the presumption is that the court will
relinquish federal jurisdiction over any supplemental
state-law claims.’” Id. at 479 (quoting Al’s Serv. Ctr. v. BP
Prod. N. Am., Inc., 599 F.3d 720, 727 (7th Cir. 2010)). “The
presumption is rebuttable, ‘but it should not be lightly
abandoned, as it is based on a legitimate and substantial
concern with minimizing federal intrusion into areas of
purely state law.’” Id. (quoting Khan v. State Oil Co., 93
F.3d 1358, 1366 (7th Cir. 1996)). Johnson has not rebutted
the presumption in favor of declining to exercise federal
jurisdiction over his remaining claims.
Further, although “certain circumstances . . . may
displace the presumption,” id. at 480 (listing “case-specific
factors,” including whether “the statute of limitations
has run” or “substantial judicial resources have already
been committed” (quoting Sharp Elecs. Corp. v. Metro.
Life Ins. Co., 578 F.3d 505, 514–15 (7th Cir. 2009))),
defendants argue and Johnson does not dispute that no
such circumstances exist here. Accordingly, I will grant
defendants’ request and decline to exercise supplemental
jurisdiction over Johnson’s state-law claims.
III. CONCLUSION
For the foregoing reasons, IT IS ORDERED that
defendants’ motion for summary judgment on Johnson’s
federal claims and request that the court relinquish
supplemental jurisdiction over his state-law claims (ECF
No. 66) are GRANTED. The Clerk of Court shall enter
final judgment accordingly.

51a
Appendix B
Dated at Milwaukee, Wisconsin, this 17th day of
January, 2018.
/s Lynn Adelman 		
LYNN ADELMAN
District Judge

